il

o
No.

filed
mar 1 2 2021
IN THE SUPREME COURT OF THE UNITED STATES^

KRYSTAL LYNN ALEXANDER - JASMIN, CHRIST, D.O.D.
PETITIONER,
vs.

THE CITY OF SANTA MONICA, SANTA MONICA POLICE DEPARTMENT,
OFFICER COCHRAN 3830, OFFICER JAUREGUI 3740, DOES 110, et al.
RESPONDENTS^)

ON PETITION FOR A WRIT OF CERTIORARI FROM UNITED STATES COURT
OF APPEALS FOR THE NINTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Krystal Lynn Alexander — Jasmin, Christ, D.o.D.
300 West Ocean Boulevard, Apt. 6615

O

Long Beach, California 90802

*—i

cn

(424)610-1442
i

realklai@gmail.com

o
T—I
CD
00
CO
CL

QUESTIONS PRESENTED
1.

Did the Ninth Circuit Court of Appeals err in its dissent from wellestablished Constitutional and case law authored by its own court, and
law authored by this Supreme Court?

2.

Did the Court of Appeals err in its dissent from the official record by
excluding admissible, expert witness evidence and testimony presented
by the Plaintiff/Appellant/Petitioner to show an undue bias for
uncorroborated, inadmissible defenses presented by the.
“Governmental Actor” Defendants/Appellees/Respondents?

3.

Did the Court of Appeals err in acting as a witness, the court itself ,
testifying, on the official record to “facts not in evidence” regarding
uncorroborated mental health allegations which contradict expert
witness testimony of Dr. Suzie Dupee?

4.

Did the Court of Appeals err in not reinstating properly served,
“dismissed without prejudice” Defendants, Los Angeles County; DCFS?

5.

Did the Court of Appeals err in not joining “Doe” Defendant, the State
of California, to the ongoing court action?

O
CD
O

rsiCD

00
CD

Q_

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:
1. THE CITY OF SANTA MONICA,
2. SANTA MONICA POLICE DEPARTMENT (SMPD),
3. SMPD OFFICER COCHRAN 3830
4. SMPD OFFICER JAUREGUI 3740,
5. SMPD OFFICER GLASER 3485,
6. SMPD OFFICER GARCIA 3778,
7. SMPD OFFICER DIAZ 3754,
8. THE COUNTY OF LOS ANGELES,
9. LOS ANGELES COUNTY DEPARTMENT OF CHILDREN AND FAMILY
SERVICES (DCFS),
10. JEWEUTT BRIGHT, DCFS SOCIAL WORKER (CSW)
11. STEPHANIE RUSH, DCFS SOCIAL WORKER (CSW)
12. JAMIE HEIN, DCFS SOCIAL WORKER (CSW)
13. DOES 1-10, including:
a. STATE OF CALIFORNIA (CA),

b. CA SUPERIOR COURT, JUDGE JULIE FOX BLACKSHAW

O
CD
*—I

c. GERALD WILKINS, DCFS SOCIAL WORKER (CSW)
O

d. SANTA MONICA-MALIBU UNIFIED SCHOOL DISTRICT, and

m
CD

QO

ro

Cl

e. LOS ANGELES COUNTY DEVELOPMENT AUTHORITY (LACDA),
FORMERLY, HOUSING AUTHORITY OF THE COUNTY OF LOS
ANGELES (HACOLA) ,
f. Doe 6
g. Doe 7
h. Doe 8
i. Doe 9
j. Doe 10

LIST OF RELATED CASES
1. UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT Case
No.: 19-55785
2. United States District Court- Central District of California Case No.: 2:16cv-06999-FMO-JDE
3. United States District Court- Central District of California Case No.: 2;15cv-07054-FMO-JEM
4. Superior Court of the State of California, E. Edelman’s Children’s Court Case
No.: CK79009 (A, B, C)

O
CD
O
<u

00

ru

Q_

TABLE OF CONTENTS
1. QUESTIONS PRESENTED FOR REVIEW

2

2. LIST OF PARTIES

3

3. LIST OF RELATED CASES

4

4. TABLE OF AUTHORITIES

6

5. CITATIONS, OPINIONS, AND ORDERS ISSUED

10

6. JURISDICTIONAL STATEMENT

10

7. CONSTITUTIONAL PROVISIONS, TREATIES, STATUTES...

11

8. STATEMENT OF THE CASE

22

9. REASONS FOR GRANTING THE PETITION

41

10. CONCLUSION

53
INDEX TO APPENDICES

APPENDIX A: 10/28/2020 ORDER DENYING REHEARING EN BANC

.59

APPENDIX B: 9/16/20 MEMORANDUM, COURT OF APPEALS, 9™ CIRCUIT _62
APPENDIX C: 05/2020 COURT ORDER APPROVING DISCLOSURE ...

72

APPENDIX D: 09/2015 EXPERT WITNESS TESTIMONY OF DR. S. DUPEE... 82
APPENDIX E: 02/21/2019 U.S. DISTRICT COURT RECOMMENDATION

.95

APPENDIX F: 04/18/2019 ORDER OF THE U. S. DISTRICT COURT

123

APPENDIX G: AFFIDAVIT... THE TRUE IDENTITY OF “CHRIST”

128

APPENDIX H: TECHNOLOGY USAGE, AND SOCIAL MEDIA PRESENCE__ 143

O
CT)
5:—I

APPENDIX I: AFFIDAVIT- NOTICES OF FILING & EMAILS OF FILING

146

APPENDIX J: FACEBOOK “LIFE EVENTS”, AND “WORK & EDUCATION”.

150

O
LO

CD
O0

<T3
Q_

TABLE OF AUTHORITIES

1. Constitution of United States of America- Amendment I, herein at pages 11,
and 35
2. Constitution of United States of America- Amendment IV, herein at pages 11,
24, 27, 28, 30, 34, 36, 45, 49, and 50
3. Constitution of United States of America- Amendment V, herein at pages 11,
27, 28, 29, 30, 32, 33, and 34
4. Constitution of United States of America- Amendment XIV, Section 1, herein
at pages 12, 28, 30, 32, 33, and 34
5. United States Judicial Canon V- A Judge Should Uphold the Integrity and
Independence of the Judiciary, herein at page 12
6. United States Judicial Canon 2- A Judge Should Avoid Impropriety and the
Appearance of Impropriety in all Activities, herein at page 13
7. United States Judicial Canon 3: A Judge Should Perform the Duties of the
Office Fairly, Impartially and Diligently, herein at pagel4
8. 42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I §1981.
Equal rights under the law, herein at page 16
9. 42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I—
§1983. Civil action for deprivation of rights, herein at pages 16, 24, 27, 28, 29,

O
CT)
T—I

30, 32, 33, 34, and 35
O
<X)
(LI

QO
TO
Q_

10.42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I—
§1985. Conspiracy to interfere with civil rights, herein at pagel7
11.42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I—
§1986. Action for neglect to prevent, herein at pages 19, and 23
12.42 U.S.C. Title 42 - CHAPTER 45 - SUBCHAPTER I - §3617. Interference,
coercion, or intimidation, herein at page 20
13.28 U.S.C. Title 28 - PART VI - CHAPTER 171 - TORT CLAIMS
PROCEDURE §2674, herein at pages 20, 43, and 50
14. Ballard v. Hunter, 204 U.S. 241, 255 (1907), herein at pages 43, and 48
15. Palmer v. McMahon, 133 U.S. 660, 668 (1890), herein at pages 43, and 48
16. United States v. Classic, 313 U.S. 299, 326 (1941), herein at pages 43, and 50
17.Monroe v. Pape, 365 U.S. 167, 180 (1961), herein at pages 43, and 50
18. Calabretta v. Floyd (9th Cir. 1999) 189 F.3rd 808, herein at pages 44, and 49
19. Fisher v. City of San Jose (9thCir. 2007) 509 F.3rd 952, herein at pages 44,
and 49
20.United States v. Warner (9th Cir. 1988) 843 F.2nd 401, 405, herein at pages
44, and 49
21. United States v. Romero Bustamante (9th Cir. 2003) 337 F.3rd 1104, 1109,
herein at pages 44, and 49
22.United States v. Ramos - Zaragosa (9th Cir. 1975) 516 F.2nd 141, 144, herein

O
O')

at pages 44, and 49
O
0)
GO
CD

o_

23.United States v. Cervantes (9th Cir. 2000) 219 F.3rd 882, 888-890, herein at
pages 44, and 50
24. Martin v. City of Oceanside (9th Cir. 2004) 360 F.3rd 1078, 1081-1083, herein
at pages 44, and 50
25. United States v. Martinez (9th Cir. 2005) 406 F.3rd 1160, herein at pages 44.
and 50
26. United States v. Russell (9th Cir. 2006) 436 F.3rd 1086, herein at pages [44]
45, and 50
“PROCEDURAL DUE PROCESS”
27.Marchant v. Pennsylvania R.R., 153 U.S. 380, 386 (1894), herein at page 41
28.Mathews v. Eldridge, 424 U.S. 319, 335 (1976), herein at page 41
29. Ballard v. Hunter, 204 U.S. 241, 255 (1907), herein at page 41
30. Palmer v. McMahon, 133 U.S. 660, 668 (1890), herein at page 41
31. Carey v. Piphus, 435 U.S. 247, 259 (1978), herein at page 41
32.Mathews v. Eldridge, 424 U.S. 319, 333 (1976), herein at page 42
33. Baldwin v. Hale, 68 U.S. (l Wall.) 223, 233 (1863), herein at page 42
34. Armstrong v. Manzo, 380 U.S. 545, 552 (1965), herein at page 42
35.Turney v. Ohio, 273 U.S. 510 (1927), herein at page 42
36.Murchison, 349 U.S. 133 (1955), herein at page 42
37. Goldberg v. Kelly, 397 U.S. 254, 271 (1970), herein at page 42

O
O')

38.Marshall v. Jerrico, 446 U.S. 238, 242 (1980), herein at page 43
39.Schweiker v. McClure, 456 U.S. 188, 195 (1982), herein at page 43

O
00
W)

o_

“Questions of Exceptional Importance”
40.People v. Morton (2003) 114 Cal.App.4th 1039, herein at page 46
41.People v. Superior Court [Irwin] (1973) 33 Cal.App.3rd 475, herein at pages
46, and 48
42. People v. Bennett (1998) 17 Cal.4th 373, herein at pages 47, and 48
43. Charles C. (1999) 76 Cal.App.4th 420, 425, herein at page 47
44. Thierry S. (1977) 19 Cal.3rd 727, 734, fn. 6, herein at page 47
DISSENT FROM Case No.- 19-55785, DOCKET ENTRY 29 inapplicable usage of
45. US v. Calhoun, herein at page 37
46. US v. Nohara, herein at page 37

O
CT>
O
CT)

<D .
GO

03
Q_

CITATIONS, OPINIONS, AND ORDERS ISSUED ON ORDERS
Petitioner respectfully prays that a Writ of Certiorari issue to review the judgment
below.

The opinion of the United States court of Appeals for the Ninth Circuit appears at
Appendix B to the petition and is reported at page 62,'

The opinion of the United States District Court appears at Appendix E AND
Appendix F to the petition and is reported at pages 95 and 123, respectively,'

JURISDICTIONAL STATEMENT

The date on which the United States Court of Appeals decided my
case was 09/16/2020. A timely petition for rehearing was denied by the
United States Court of Appeals on the following date: 10/28/2020, and a
copy of the order denying rehearing appears at Appendix A on page 59.

The jurisdiction of this Court is invoked under 28 U.S. Code § 2101, and 28
U. S. C. § 1254(1).

O
Ch
*—I

O
O
*—I

(LI
OD

CD
Q_

CONSTITUTIONAL PROVISIONS, TREATIES, STATUTES, ORDINANCES, AND
REGULATIONS
1. CONSTITUTION OF UNITED STATES OF AMERICA, SPECIFICALLY,
THE 1ST AMENDMENT, THE 4TH AMENDMENT, THE 5TH
AMENDMENT, AND THE 14TH AMENDMENT, SECTION 1.
a. Constitution of United States of America- Amendment I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof or abridging the freedom of
speech, or of the press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.
b. Constitution of United States of America- Amendment IV
The right of the people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.
c. Constitution of United States of America- Amendment V
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger! nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb;

O
CT>
*—I

O
*—I

\—I

tu

OjO
CO
Q_

nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due
process of law! nor shall private property be taken for public use,
without just compensation.
d. Constitution of United States of America* Amendment XIV, Section 1
All persons born or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or
t

property, without due process of law,' nor deny to any person within its
jurisdiction the equal protection of the laws.
2. United Nations Treaty, especially CHAPTER IV: Human Rights,
International Covenant on Civil and Political Rights. New York, 16 December
1966.
3. THE CODE OF CONDUCT FOR UNITED STATES JUDGES, INITIALLY
ADOPTED BY THE JUDICIAL CONFERENCE ON APRIL 5, 1973,
KNOWN AS THE "CODE OF JUDICIAL CONDUCT FOR UNITED STATES
JUDGES", in pertinent part, states^
a. Canon V A Judge Should Uphold the Integrity and Independence of
the Judiciary

O

cn
O
rsi
*—i

CD
OO
CD

Q_

■ An independent and honorable judiciary is indispensable to
justice in our society. A judge should maintain and enforce high
standards of conduct and should personally observe those
standards, so that the integrity and independence of the
judiciary may be preserved. The provisions of this Code should
be construed and applied to further that objective.
b. Canon 2- A Judge Should Avoid Impropriety and the Appearance of
Impropriety in all Activities
■

(A) Respect for Law. A judge should respect and comply with the
law and should act at all times in a manner that promotes public
confidence in the integrity and impartiality of the judiciary.

■

(B) Outside Influence. A judge should not allow family, social,
political, financial, or other relationships to influence judicial
conduct or judgment. A judge should neither lend the prestige of the
judicial office to advance the private interests of the judge or others
nor convey or permit others to convey the impression that they are
in a special position to influence the judge. A judge should not
testify voluntarily as a character witness.

■

(C) Nondiscriminatory Membership. A judge should not hold
membership in any organization that practices invidious

O
O')

discrimination on the basis of race, sex, religion, or national origin.

O

m
*—I
CD
00

CD
CL

c. Canon 3: A Judge Should Perform the Duties of the Office Fairly,
Impartially and Diligently, in pertinent part, states:
■ The duties of judicial office take precedence over all other activities.
The judge should perform those duties with respect for others, and
should not engage in behavior that is harassing, abusive,
prejudiced, or biased. The judge should adhere to the following
standards:
(A) Adjudicative Responsibilities.
(l) A judge should be faithful to, and maintain professional
competence in, the law and should not be swayed by partisan
interests, public clamor, or fear of criticism.
(4) A judge should accord to every person who has a legal
interest in a proceeding, and that person’s lawyer, the full right
to be heard according to law. Except as set out below, a judge
should not initiate, permit, or consider ex parte communications
or consider other communications concerning a pending or
impending matter that are made outside the presence of the
parties or their lawyers. If a judge receives an unauthorized ex

O
CT>
T—I

parte communication bearing on the substance of a matter, the
O
judge should promptly notify the parties of the subject matter of
*—I
QJ
CUD
CD
Q_

the communication and allow the parties an opportunity to
respond, if requested...
(5) A judge should dispose promptly of the business of the court.
(B) Administrative Responsibilities.
(l) A judge should diligently discharge administrative
responsibilities, maintain professional competence in judicial
administration, and facilitate the performance of the
administrative responsibilities of other judges and court
personnel.
(6) A judge should take appropriate action upon receipt of
reliable information indicating the likelihood that a judge’s
conduct contravened this Code, that a judicial employee’s
conduct contravened the Code of Conduct for Judicial
Employees, or that a lawyer violated applicable rules of
professional conduct.
(C) Disqualification.
(l) A judge shall disqualify himself or herself in a proceeding in

O
CD

which the judge’s impartiality might reasonably be questioned,
including but not limited to instances in which:

O
LO
*—I
CL)
00
CD

CL

(a) the judge has a personal bias or prejudice concerning a
party, or personal knowledge of disputed evidentiary facts
concerning the proceeding...
4. 42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I §1981.
Equal rights under the law (a) AND (c)
(a) Statement of equal rights
All persons within the jurisdiction of the United States shall have the same
right in every State and Territory to make and enforce contracts, to sue, be
parties, give evidence, and to the full and equal benefit of all laws and
proceedings for the security of persons and property as is enjoyed by white
citizens, and shall be subject to like punishment, pains, penalties, taxes,
licenses, and exactions of every kind, and to no other.
(c) Protection against impairment
The rights protected by this section are protected against impairment by
nongovernmental discrimination and impairment under color of State law.
(R.S. §1977; Pub. L. 102-166, title I, §101, Nov. 21, 1991, 105 Stat. 1071.)

5. 42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I—
§1983. Civil action for deprivation of rights

O
CT>

Every person who, under color of any statute, ordinance, regulation, custom,
or usage, of any State or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States or other person within

O
T—I
CD

00
CO
CL

the jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for
redress, except that in any action brought against a judicial officer for an act
or omission taken in such officer's judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or declaratory relief was
unavailable. For the purposes of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be considered to be a statute of
the District of Columbia. (R.S. §1979,' Pub. L. 96—170, §1, Dec. 29, 1979, 93
Stat. 1284; Pub. L. 104-317, title III, §309(c), Oct. 19, 1996, 110 Stat. 3853.)
6. 42 U.S.C. Title 42 - CHAPTER 21 ■ CIVIL RIGHTS, SUBCHAPTER I—
§1985. Conspiracy to interfere with civil rights
’ (l) Preventing officer from performing duties
If two or more persons in any State or Territory conspire to prevent, by force,
intimidation, or threat, any person from accepting or holding any office, trust,
or place of confidence under the United States, or from discharging any
duties thereof or to induce by like means any officer of the United States to
leave any State, district, or place, where his duties as an officer are required
to be performed, or to injure him in his person or property on account of his
lawful discharge of the duties of his office, or while engaged in the lawful

O
CT)

discharge thereof, or to injure his property so as to molest, interrupt, hinder,

O

or impede him in the discharge of his official duties;

r^
CL)
OD
03

CL

(2) Obstructing justice** intimidating party, witness, or juror
If two or more persons in any State or Territory conspire to deter, by force,
intimidation, or threat, any party or witness in any court of the United States
from attending such court, or from testifying to any matter pending therein,
freely, fully, and truthfully, or to injure such party or witness in his person or
property on account of his having so attended or testified, or to influence the ,
verdict, presentment, or indictment of any grand or petit juror in any such
court, or to injure such juror in his person or property on account of any
verdict, presentment, or indictment lawfully assented to by him, or of his
being or having been such juror! or if two or more persons conspire for the
purpose of impeding, hindering, obstructing, or defeating, in any manner, the
due course of justice in any State or Territory, with intent to deny to any
citizen the equal protection of the laws, or to injure him or his property for
lawfully enforcing, or attempting to enforce, the right of any person, or class
of persons, to the equal protection of the laws!
(3) Depriving persons of rights or privileges
If two or more persons in any State or Territory conspire or go in disguise on
the highway or on the premises of another, for the purpose of depriving,
either directly or indirectly, any person or class of persons of the equal
protection of the laws, or of equal privileges and immunities under the laws!
or for the purpose of preventing or hindering the constituted authorities of
any State or Territory from giving or securing to all persons within such

O
CD
O
00
*—I

CD
00

05
Q_

State or Territory the equal protection of the laws; or if two or more persons
conspire to prevent by force, intimidation, or threat, any citizen who is
lawfully entitled to vote, from giving his support or advocacy in a legal
manner, toward or in favor of the election of any lawfully qualified person as
an elector for President or Vice President, or as a Member of Congress of the
United States.' or to injure any citizen in person or property on account of
such support or advocacy,' in any case of conspiracy set forth in this section, if
one or more persons engaged therein do, or cause to be done, any act in
furtherance of the object of such conspiracy, whereby another is injured in his
person or property, or deprived of having and exercising any right or privilege
of a citizen of the United States, the party so injured or deprived may have an
action for the recovery of damages occasioned by such injury or deprivation,
against any one or more of the conspirators. (R.S. §1980.)
7. 42 U.S.C. Title 42 - CHAPTER 21 - CIVIL RIGHTS, SUBCHAPTER I—
§1986. Action for neglect to prevent
Every person who, having knowledge that any of the wrongs conspired to be
done, and mentioned in section 1985 of this title, are about to be committed,
and having power to prevent or aid in preventing the commission of the
same, neglects or refuses so to do, if such wrongful act be committed, shall be
liable to the party injured, or his legal representatives, for all damages
caused by such wrongful act, which such person by reasonable diligence could
have prevented,’ and such damages may be recovered in an action on the case!

O
O')
O
O')
*—I
CL)

QO
(T3
CL

and any number of persons guilty of such wrongful neglect or refusal may be
joined as defendants in the action; and if the death of any party be caused by
any such wrongful act and neglect, the legal representatives of the deceased
shall have such action therefor, and may recover not exceeding $5,000
damages therein, for the benefit of the widow of the deceased, if there be one,
and if there be no widow, then for the benefit of the next of kin of the
deceased. But no action under the provisions of this section shall be sustained
which is not commenced within one year after the cause of action has
accrued. (R.S. §1981.)
8. 42 U.S.C. Title 42 - CHAPTER 45 - SUBCHAPTER I - §3617. Interference,
coercion, or intimidation
It shall be unlawful to coerce, intimidate, threaten, or interfere with any
person in the exercise or enjoyment of, or on account of his having exercised
or enjoyed, or on account of his having aided or encouraged any other person
in the exercise or enjoyment of, any right granted or protected by section
3603, 3604, 3605, or 3606 of this title. (Pub. L. 90-284, title VIII, §818,
formerly §817, Apr. 11, 1968, 82 Stat. 89; renumbered §818 and amended
Pub. L. 100-430, §§8(1), 10, Sept. 13, 1988, 102 Stat. 1625, 1635.)
9. 28 U.S.C. Title 28 - PART VI ■ CHAPTER 171 - TORT CLAIMS
PROCEDURE §2674. Liability of United States
The United States shall be liable, respecting the provisions of this title
relating to tort claims, in the same manner and to the same extent as a

O

cr>

O
O
CM

CD
CUD
<T3
Q_

private individual under like circumstances, but shall not be liable for
interest prior to judgment or for punitive damages.
10.California Penal Code... § 148(a)(1): Willfully resisting a police officer
11. Cal. Penal Code Section 647 (f): Public Intoxication
12.Fed. R. App. P. 40(a)(1), herein at page 47
13. (ORDER LIST: 589 U.S.) THURSDAY, MARCH 19, 2020 ORDER In light of
the ongoing public health concerns relating to COVID-19, the following shall
apply to cases prior to a ruling on a petition for a writ of certiorari: IT IS
ORDERED that the deadline to file any petition for a writ of certiorari due on
or after the date of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a
timely petition for rehearing. See Rules 13.1 and 13.3.
14. (ORDER LIST: 589 U.S.) WEDNESDAY, APRIL 15, 2020 ORDER In light of
the ongoing public health concerns relating to COVID-19: IT IS ORDERED
that with respect to every document filed in a case prior to a ruling on a
petition for a writ of certiorari or petition for an extraordinary writ, or a
decision to set an appeal for argument, a single paper copy of the document,
formatted on 8V2 x 11 inch paper, may be filed. The document may be
formatted under the standards set forth in Rule 33.2, or under the standards
set forth in Rule 33.1 but printed on 8% x 11 inch paper. The Court may later

O
CT>

request that a document initially submitted on 8V2 x 11 inch paper be

O

submitted in booklet format.

r\]
<D

oo

CO
CL

STATEMENT OF THE CASE

Krystal Lynn Alexander - Jasmin, Christ, Doctor of Divinity, is being
suppressed by the government. Ms. Alexander — Jasmin and her children, Michele
Kalani Jasmin, Kellie Makayla Jasmin and Karissa Julie Jasmin, have not been
afforded equal rights under the law, and have been subjected to excessive attempts
to prevent equal protections and enjoyment of the law, tantamount to impairment,
by nongovernmental discrimination, and impairment under color of State and
Federal law. The aforementioned impairments have caused the necessity for civil
action. Ms. Alexander — Jasmin has not attended any institution of learning
distinguished or accredited as a “law school”, and has not received any credential
required to represent any person other than herself in any legal action, hence, her
children are not allowed to join as parties to the civil actions identified herein.
Under color of several statutes, ordinances, regulations, customs, etc., Ms.
Alexander — Jasmin was subjected to the deprivation of rights, privileges, and
immunities secured by the Constitution and laws of the United States of America. A
civil action was filed against the liable parties, and ten (10) “DOE” Defendants, by
the party injured. A conspiracy ensued wherein there was a plot to interfere with
civil rights and civil action, obstructing justice and self advocacy by deception,
dishonesty, force, intimidation, threat, and intentional infliction of mental, physical
and emotional harm, causing injury, and to influence the outcome of said civil
action.

O
CD
O
rsj
CM

CD
00
ro

>CL

The conspiracy included the impeding, hindering, obstructing, and defeating
the due course of justice, with intent to deny to a citizen the equal protection of the
laws, and to injure her for lawfully attempting to enforce her rights protected under
the laws; depriving her of rights and privileges. Evidence of these deprivations was
filed and demonstrated in the content of the filings in the “Related Cases” identified
herein, but was intentionally disregarded by the lower courts, in furtherance of the
conspiracy.
The actions of the lower courts have been in violation and dereliction of their
sworn duties, causing the basis for civil action granted by 42 U.S.C. §1986. Action
for neglect to prevent. With the evidence being filed, and as such, a part of the
complete court record, each Defendant/Respondent, by way of their own knowledge
or of their legal representative, as well as the court itself, had a requirement to
review the evidence of the case, and the opportunity, responsibility and power to
prevent or aid in preventing the commission of the aforementioned deprivation of
rights and damages thereof. By reasonable diligence, each party to the civil action
and the court itself could have prevented said damage, but neglected to do so. The
law identifies such behavior as “wrongful acts”, and charges that the wrongdoer be
held liable to the party injured for all damages caused by such “wrongful acts”.
In the initial filing of related cases, l) United States District Court- Central
District of California Case No.: 2:i5-cv-07054-FMOJEM, and 2) United States

O
CT)

District Court* Central District of California Case No.: 2:l6-cv-06999-FMOJDE,

O

no
r\i

CD
GO
CO

CL

the following claims were formally stated as a part of the court record, and are as
follows:
Claim #1
1. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 4th
Amendment Violation: Invasion of Privacy & Unlawful Search & Seizure of
Property
2. The above civil right was violated by Santa Monica-Malibu Unified School

District the City of Santa Monica, Santa Monica Police Department, and
SMPD Officers of the SMPD, Cochran 3830, Jauregui 3740, Glaser 3485,
Garcia 3778 and Diaz 3754
3. SMMUSD employee, Cathryn Taylor contacted SMPD. SMPD sought out the

petitioner with full knowledge no crime had been committed, and without
any evidence of child abuse. SMPD went to the petitioner’s residence with a
show of force of 5 uniformed officers, and entered onto the petitioners’ private
property to conduct an investigation and make an arrest without a warrant
or probable cause,' laying the foundation for a plethora of violations of
petitioner’s rights. They seized the property for an extended time while the
petitioner was not home. The petitioner and her children were then the
subject of an unlawful detention, and false arrest. SMMUSD employees then
colluded with SMPD to falsify evidence and cover up the existence of the false
arrest and civil rights violations. Cathryn Taylor and SMMUSD employee
Wendy Wex-Gellis proceeded gave false statements to assist SMPD in their

O
CT)
*—I
O

rslCD

CUD

CD

CL

attempts to evade liability for false arrest, unlawful detention, malicious
prosecution, and other violations against the petitioner. Ms. Taylor appeared
and testified in deposition a 12/10/18 while still committing perjury.
4. As a result of the Respondent’s violation of the above civil right, the
petitioner was harmed in the manner asserted in all paragraphs above. The
petitioner attributes all liability of damage to respondents individually and
collectively, as a result of the combined efforts between governmental
agencies to violate the petitioner’s rights and oppress her so that she would
remain violated; all parties are responsible for their actions and their
coconspirators actions, and inseparable as a matter of law.
5. SMPD deprived the petitioner of rights guaranteed under the United States
Constitution and laws of the State of California, and caused unwarranted,
unlawful and unnecessary intrusions into the private lives of citizens which
had further repercussions. Their actions caused broken familial bonds when
the children were unlawfully removed from the petitioner by SMPD with the
false arrest, then, after initiating their involvement, conspired with the
Department of Children and Family Services to further remove the children
without due process of law or necessity.

6. If not for the actions of these respondents, the subsequent harm and damage

O
CD

caused by DCFS would not have been possible. These respondents caused

O

circumstances which broke up a family for more than two years without such

\—I

LO
rsj
<u

DO

ro
a_

a break up being justified or necessary. SMPD forced the family under the
authority of the state with a false arrest, and then by involving DCFS who
acted in collusion with SMPD to make an unlawful detention of the
petitioner’s children.
7. These respondents caused the petitioner to be subject to public ridicule and
the reputation of the petitioner to be publically damaged when remarks
which were intended to embarrass, humiliate and vilify the petitioner in the
community were published by a newspaper,' Santa Monica Daily Press, who
distributes their articles around the world on the world wide web/internet.
8. Due to the arrest, which was a “false arrest” by legal definition, being
reported to the Department of Justice (DOJ), the petitioner lost her job and
appeal to get her job back with the Department of Public Social Services. The
termination of employment was solely due to the police reporting the false
charge of “Willful Cruelty/Inflicting Injury to a child” to the DOJ; false
charges which showed up when petitioner’s employer conducted a routine
background check.
9. The petitioner, an entertainer, missed an opportunity to participate in the
filming of a large scale movie production “Straight Outta Compton” which
she was already confirmed to attend. It was an important, once in a lifetime
opportunity for the petitioner. The petitioner missed other performance
opportunities and exposure that she was normally and regularly engaged in
for her career prior to this incident.

O
Ch
*—I

O
CM

01
QJ3
TO
CL

10. The petitioner was required to dedicate irreplaceable time to resolve these
issues.
11. Petitioner experienced extreme emotional distress.
fflaim ff2
1. Petitioner re-alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 4th and 5th
Amendment Violation: Excessive Force, Excessive Show of Force Without a
Warrant & Unlawful Search and Seizure of Persons
3. The above civil right was violated by the City of Santa Monica, Santa Monica
Police Department, and Officers of the SMPD, Cochran 3830, Jauregui 3740,
Glaser 3485, Garcia 3778 and Diaz 3754
4. When SMPD arrived to the petitioner’s residence with 5 officers (a show of
force) and 3 marked police vehicles to make contact with the petitioner as a
part of their child abuse suspicion investigation under the guise of a welfare
check, and in conflict with the petitioners constitutional interests, they did so
without a warrant or any attempt to get a warrant even though they were
required by law to have a warrant for such an investigation. They arrested
the petitioner and her children at their home for “Public Intoxication” while
they were at a ,private residence and no one was intoxicated. They made this
contact in absence of a warrant, probable cause, or a crime having been
committed. Upon arrest, SMPD officers touched the petitioner in an offensive
manner, and took her children and possessions from her.

O
CT)
^—I
O
1^
CNI
cu

CtO
TO
Q_

/

Claim m
1. Petitioner re alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 4th and 5th

Amendment Violation: Unlawful Arrest without Probable Cause/ Assault and
Battery
3. The above civil right was violated by the City of Santa Monica, Santa Monica

Police Department, and Officers of the SMPD, Cochran 3830, Jauregui 3740,
Glaser 3485, Garcia 3778 and Diaz 3754
4. When after the petitioner asked if she was in fact being detained or free to go
after denying any involvement in crime or illegal activity, the SMPD did not
allow her to go free. After asserting her rights, SMPD arrested the petitioner
without a crime having committed in retaliation. SMPD officers placed the
petitioner was under arrest for Public Intoxication although she was not in
public or intoxicated, then each officer refused to administer a breathalyzer
even though she continued to request one. SMPD offensively touched her
while they carried out a false arrest.
Claim #4
1. Petitioner re-alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 4th and

14th Amendment: False Arrest and Imprisonment/ Assault and Battery

O
CD
O
00

rvi

QJ

taO

TO
Q_

3. The above civil right was violated by the City of Santa Monica, Santa Monica
Police Department, and Officers of the SMPD, Cochran 3830, Jauregui 3740,
Glaser 3485, Garcia 3778 and Diaz 3754
4. While acting under authority given by the state of California and the City of
Santa Monica, the SMPD arrested the petitioner under false pretenses for a
crime their training suggests they knew she did not commit; PUBLIC
INTOXICATION. SMPD officers then physically touched the petitioner in an
offensive manner to exact their false arrest. SMPD refused to administer the
breathalyzer she requested at the scene of arrest and later at the SMPD
jail/station.
Claim flR

1. Petitioner re-alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 5th
Amendment: Police Misconduct.’ Conspiracy
3. The above civil right was violated by the City of Santa Monica, Santa Monica
Police Department, Does Officers, and Officers of the SMPD, Cochran 3830,
Jauregui 3740, Glaser 3485, Garcia 3778 and Diaz 3754
4. When none of the 5 officers at the scene acted to protect the rights of the
petitioner, they became complicit in the false arrest of petitioner which
deprived her of liberty and other rights. SMPD officers arrested the
petitioner under a false charge, denied her due process by refusing to
acknowledge their need for a warrant, and denied her equal protection under

O
O')
*—I

O
CT1
Csl

O)
00

(U
Q_

the law when they performed these actions. All of the officers at the scene
and several officers at SMPD Jail refused to administer a breathalyzer when
the petitioner repeatedly requested one. The petitioner’s children were
arrested for no reason, and handed over to DCFS by SMPD when they were
not abused or neglected, and there was another adult to care for them in
relation to the false arrest for “Public Intoxication”. Police filed an incident
report which was riddled with false statements. These actions set in motion a
myriad of instances where the petitioner was repeatedly denied her rights by
coconspirators (DCFS) under the color of law. Police later denied that the
petitioner was ever arrested when they were contacted by Victim’s
Compensation in their investigation of the petitioner’s application for relief
from the job loss caused by SMPD’s false arrest and false reporting to the
Department of Justice.
Claim
1. Petitioner re-alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 4th
Amendment, 5th Amendment, and 14th Amendment: Custodial Interference
3. The above civil right was violated by the City of Santa Monica, Santa Monica
Police Department, Officers of the SMPD, Cochran 3830, Jauregui 3740
Glaser 3485, Garcia 3778 and Diaz 3754, the County of Los Angeles, the Los

O
CT>

Angeles County Department of Children and Family Services, CSW Jeweutt

, O

Bright, and CSW Stephanie Rush

o
noo>

GO

CD
Q_

4. When SMPD officers denied the petitioner the right to parent her children by
refusing to allow Dana Rogers to care for them in the face of the false arrest
for PUBLIC INTOXICATION, the police interfered with her right to parent.
The officers elected to arrest the children when there was no actual or lawful
reason to do so. They conducted an unlawful seizure of persons when no such
circumstances were established allowing them to do so. When the SMPD
decided to subjugate parental authority over the petitioner’s children against
the family’s constitutional interests, they denied liberty, due process and
equal protection to the petitioner and her children. SMPD involved DCFS
when it was unnecessary, and fabricated false charges to justify their arrest
of the children. When DCFS agent J. Bright decided to detain children into
state custody while he knew they were not abused or neglected, he acted in
furtherance of SMPD’s false arrests of the petitioner’s family. DCFS agents
Bright and Rush then entered false allegations in a petition to initiate court
proceedings where they recommended the state mandated breakup of the
petitioner’s family based solely on the false reports of SMPD and their own
false, fabricated allegation of child abuse. DCFS argued to keep children who
they knew were not abused or neglected for more than 2 years, and strongly
opposed for the record when the judge gave the children back to the
petitioner.
Claim #7
1. Petitioner re-alleges and incorporates all paragraphs above.

O
O')
O
*—I

mCD

DO

(T3
Q_

2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 5th
Amendment and 14th Amendment: Unlawful Detention
3. [The above civil right was violated by the City of Santa Monica, Santa
Monica Police Department, Officers of the SMPD, Cochran 3830, Jauregui
3740, Glaser 3485, Garcia 3778 and Diaz 3754, the County of Los Angeles,
the Los Angeles County Department of Children and Family Services, CSW
Jeweutt Bright, and CSW Stephanie Rush]
4. [The aforementioned] subjugated parental rights from the petitioner without
investigating, or confirming a substantiated occurrence of child abuse or
neglect, the DCFS agent denied the petitioner and her children due process
and equal protection. DCFS failed to conduct any investigation at all before
detaining the petitioner’s children, and claimed to rely solely on SMPDs false
arrest as evidence of child abuse. DCFS then had the children further
detained in a court of law by entering a petition to the court which contained
false allegations fabricated by DCFS to grant them custody of the petitioner’s
children. DCFS agents Bright and Rush committed acts of perjury when they
signed that the allegations which they knew were false and never had any
evidence to support were true. The children remained in state custody for
more than 2 years based on DCFS’s perjury and acts of unlawful detention.

O

cn
\—I

Claim #8
1. Petitioner realleges and incorporates all paragraphs above.

O

rsi

mCD

txo
CD

Q_

2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 5th
Amendment and 14th Amendment: DCFS Entered False Evidence into a
Judicial Proceeding
3. The above civil right was violated by the County of Los Angeles, Los Angeles
County Department of Children and Family Services, DCFS agents, Jeweutt
Bright, Stephanie Rush and Jamie Hein
4. When DCFS agents filed a petition in a dependency proceeding September
2014, they did so knowing the petition contained false allegation that they
themselves fabricated against the petitioner. They had no evidence to support
their allegations, and they knew it would cause the petitioner to lose custody
of her children based on the courts reliance on the false allegations as
evidence for DCFS’s prima fascia case. They falsely claimed the petitioner
had a history of substance abuse. They falsely claimed the petitioner left her
children unsupervised on numerous prior occasions, a claim for which they
had no dates or incidents to cite. After their late investigation did not yield
any evidence to support their fabricated allegations, DCFS agents fabricated
yet another allegation against petitioner, alleging the petitioner had a history
of unresolved mental health problems. DCFS entered a total of 3 false
allegation against the petitioner in an effort to deprive the petitioner and her
family of their rights, and all of the allegations were proven to be unfounded.

O
O')

The petitioner’s family was separated for more than 2 years because of

O

DCFS’s false reporting, and entering false allegations and evidence in a

m
00

CD
ClO
CD

Q_

judicial proceeding. DCFS also falsified witness statements to help support
their false allegations. This denied the petitioner due process and equal
protection under the law.
Claim #9
1. Petitioner re-alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 4th
Amendment, 5th Amendment and 14th Amendment: DCFS Entered False
Evidence into a Judicial Proceeding, Unlawful Detention & Witness
Intimidation
3. The above civil right was violated by the County of Los Angeles, Los Angeles
County Department of Children and Family Services, and DCFS agent,
Jamie Hein
4. When the DCFS DI Hein agent filed an addition to a petition in October
2014, she did so knowing the initial allegations filed in September were false,
but re-alleged them anyway. During her investigation she threatened to have
the petitioner’s children adopted if the petitioner did not turn over
confidential medical records, or if the petitioner’s children went to court and
contradicted her false statements and false reporting. She authored a third
false allegation in an amended petition to the court in retaliation for the
petitioner’s refusal to waive her rights to privacy of her medical records. She
fabricated witness statements to cause the petitioner to lose custody of her

O
CP)
O

no

CD
DO
CO
Q_

A

children. This denied the petitioner due process and equal protection under
the law, and caused detriment to the petitioner and the petitioner’s family.
Claim it 10

1. Petitioner re-alleges and incorporates all paragraphs above.
2. Petitioner has a claim under 42.U.S.C. § 1983 for violation of the 1st
Amendment: Religious Persecution, Defamation of Character
3. The above civil right was violated by the City of Santa Monica, Santa Monica
Police Department, the County of Los Angeles, Los Angeles County
Department of Children and Family Services, and DCFS agent, Jamie Hein
4. SMPD exacted a false arrest on the petitioner while she was wearing
religious garb, then attributed false quasi-religious statements in their report
to the petitioner. After SMPD involved DCFS and DCFS’s initial false
allegations were known to be unfounded, DCFS DI Hein filed an amended
petition October 2014 which included a third false allegation. She did so
without there being any incidents of child abuse or neglect. The allegation
)

was risk based and she claimed the risk was related to petitioner’s religious
practices. She described the petitioner’s religious practice of “fasting and
praying” as “staring at walls” and “talking about God and the devil”. She
specifically recommended that the children not be returned even though she
knew they were not abused or neglected, and even though she knew she had

O
CT>
t—I

no evidence to suggest the petitioner was a risk to her children. She had no

O

evidence to suggest the petitioner had any unresolved mental or emotional

co

LO

CL)
00
CO
Q_

problems, but still signed under penalty of perjury that the petitioner’s
religious practices caused risk of detriment and harm to her children. This
infringed on the petitioner’s rights to practice her religion, and caused
detriment to the petitioner’s family and the reputation of the petitioner’s
character. Later, SMPD and Cathryn Taylor conspired to commit perjury in
the deposition conducted December 06, 2018 by their counsel regarding the
religious garb the petitioner was wearing on the day of the arrest.

DISCUSSION ON APPEALS Case No.: 19-55785. DOCKET ENTRY 29
Regarding “Dkt Entry:29'1, Page 2 of 5”, the panel is affirming all previous
orders, even though those orders are based on known false evidence that is on
record as being previously dismissed and/or designated as “unfounded” by a judge in
state court.
In addition to not addressing all issues cited in the filing of the appeal, there
are discrepancies with what was addressed. The court cites, “no reasonable
expectation of privacy” for police presence at private residence while SMPD
reported they were present to conduct a child abuse suspicion investigation. The
mere presence of SMPD did not violate a right, however, the child abuse suspicion
investigation did violate several of Ms. Alexander-Jasmin’s rights. The initial arrest
for “Obstruction” of an investigation is based on the warrantless child abuse
suspicion investigation which is recognized as a 4th Amendment Violation under
well-established law. The subsequent, false charge to bolster the arrest is not an

O
<J)
O
<X>

m<D

OD
CU

CL

appropriate place to memorialize the encounter that transpired 09/19/2014, because
it was just additional misconduct, in addition to the warrantless presence to search
and seize evidence. The panels’ assertion goes directly against aforementioned,
well-established due process laws, as well as laws specifically requiring a warrant
for their presence at a private residence outside of an emergency.
When the officers escalated their simple presences to a “detention”, then
escalated the detention to an “unlawful extended detention”, then escalated to an
arrest for “Obstruction” all without a warrant granting permission to conduct a
child abuse suspicion investigation at Ms. Alexander-Jasmin’s residence, they
violated her rights, the rights of her children, and caused irreversible harm and
damage. As such, US v. Calhoun, and US v. Nohara do not apply here. The panel’s
decision to affirm the lower court and dismiss the case seem to be based on the fact
that the police were allowed to be present on the property, but they are neglecting
to address the warrantless child abuse suspicion investigation which is expressly
prohibited in the constitution, as well as an abundance of instances of wellestablished case law cited herein.
The overall tone of the panel seems to be “mocking” Ms. Alexander-Jasmin’s
audacity to seek justice against the government, and it is extremely dismissive of
the severity of this case, as well as the harm and damage which was caused when
SMPD willfully decided to deny Ms. Alexander-Jasmin her enumerated rights. This

O
CT>
*—I

false arrest caused an unnecessary break up of a family for over 2 V2 years, only to

O

result in all underlying aspects of the case brought against Ms. Alexander-Jasmin

m
a>

ao

TO
Q_

to be dismissed as “unfounded”. This false arrest caused termination of employment
due to false reporting of child abuse to the United States Department of Justice.
Tampering stemming from this false arrest caused an excessive amount of
relationships to sour, and Ms. Alexander-Jasmin and her children to be harassed
and assaulted in several communities within Los Angeles County, immediately
upon arriving in those places. People have been intentionally poisoned against Ms.
Alexander-Jasmin, even to the point where they have been convinced she is an evil
to be punished by individual citizens. Ms. Alexander-Jasmin has been subjected to
numerous, unwarranted attacks and threats, and, as such, her liberty was stolen.
Ms. Alexander-Jasmin’s pursuit of happiness was intentionally ended by acts of
misconduct by her own government. Ms. Alexander*Jasmin’s peace has been stolen.
The very foundation of Ms. Alexander-Jasmin’s life was shattered, and she has been
denied due process to be made whole from the damage.
The panel has dishonestly stated that there is “no law or existing precedent”
upon which to view my appeal favorably, however, prior 9th Circuit ruling dissent.
The panel itself provides false testimony to assist the Respondents on page 4.
See ID:11825682, Dkt Entry: 29-1, Page 4 of 5, Lines 1-3, which reads, “Once on the
property, and after conducting a lawful investigation, a reasonable officer could
have concluded that there was probable cause to arrest for Public Intoxication
under Cal. Penal Code Section 647 (f).” At page 4, lines 8-15, the panel falsely
testifies that there was evidence of intoxication, contradicting evidence and
testimony from the lower court. With regard to this excerpt, and in addition to all

O
O')
*—I
O
00

on

CL)
00

CD
Q_

aforementioned laws outlined herein, remember that there were no criminal
charges prosecuted and claims of child abuse were deemed “unfounded by a state
court judge. Also, consider the following:
1.

SMPD has reported numerous times that the investigation was for

child abuse suspicion, not Public Intoxication, and not securing the required
warrant opened the door to further abuses of power and harm, causing excessive,
recorded damage.
2.

The assertion that the investigation was lawful is false, because the

law requires that SMPD have a warrant before conduction a child abuse suspicion
investigation, and SMPD did not even apply for a warrant before gathering 5
uniformed offices at the residence to search and seize evidence for their suspicion of
child abuse investigation, nor were they waiting for one when they seized the
property for more than an hour before the arrest.
3.

The initial arrest was for “Obstruction” of a child abuse suspicion

investigation, not “Obstruction” of a Public Intoxication investigation.
4.

Law requires that a citation for a misdemeanor offense be issued, not

an arrest.' Plus, the Public Intoxication charge was imposed on someone arrested at
a private residence, and no elements of Cal. Penal Code Section 647 (f), especially
the required “blocking a public space or way” or inability to care, were present.
5.

Ms. Alexander-Jasmin was jailed 3 days, her reputation was

publicly ruined, she was terminated from her employment, and her children were
unlawfully detained as wards of the state for almost 3 years only for the case to be

O
CD
*—I
O
CD

mCD

CIO

CO
Q_

dismissed as “unfounded”. She also lost family and friends who agreed to
participate in an unlawful attempted “exile” of the family, because they could not
withstand the pressure by their own local government.
6.

Ms. Alexander-Jasmin was sexually assaulted, because the methods of

discouraging valid Civil Rights Claims is harassment, abuse and torture. A plot to
convince the public that Krystal was a “Sex Demon” was created and an excessive
amount of people, citizens, participated in the harmful and damaging behavior.
Krystal was looked upon as an “object”, and forced into sexual encounters. The
State of California’s Victim Compensation Board was intentionally withholding
assistance designated for victims that was previously approved in 2019. Where the
law allowed them up to 45 days to issue relocation funds, the State of California
Victims Compensation board took approximately six (6) months to process the claim
and issue the funds. Krystal and her family was subjected to more attacks and
abuses during that period of time.
The Civil Rights and Appellate courts showed bias against well-established
law and decisions from their own courts to grant an unfair dismissal of a valid claim. The harmful actions of the Respondents/Respondents which were the basis of
Ms. Alexander-Jasmin’s Civil Rights Claim caused the Jasmin Family actual harm
and damage. The Jasmin Family have been made targets for contempt, scorn and
abuse in their community, and the lawlessness of the government demonstrates a
clear need to claim the provisions of “a well-founded fear of persecution” as a basis
to seek refugee status.

O
CT)
t—I

O
O
CD
CUD
CD

CL

REASONS FOR GRANTING THE PETITION
PROCEDURAL DUE PROCESS: CIVIL
Due process requires that the procedures by which laws are applied must be
evenhanded, so that individuals are not subjected to the arbitrary exercise of
government power. Marchant v. Pennsylvania R.R., 153 U.S. 380, 386 (1894).
There is a required balancing of the government’s chosen procedure with
respect to the private interest affected, the risk of erroneous deprivation of that
interest under the chosen procedure, and the government interest at stake. See
Mathews v. Eldridge, 424 U.S. 319, 335 (1976).
A court proceeding is not a requisite of due process. Ballard v. Hunter, 204
U.S. 241, 255 (1907); Palmer v. McMahon, 133 U.S. 660, 668 (1890).
First, “[plrocedural due process rules are meant to protect persons not from
the deprivation, but from the mistaken or unjustified deprivation of life, liberty, or
property.” Carey v. Piphus, 435 U.S. 247, 259 (1978).
I reported the lower courts dissention from well-established law, however,
the higher court ignored my report, declined to review my brief in the best light,
and affirmed the lower courts decisions even though their decisions were not in line
with well-established law, ignored the underlying facts of record, and were based on
already debunked evidence stemming from prior court proceedings.

O

I was never present at a hearing due to being under attack in my own
community, for the contempt and scorn the false arrest and filing of the civil case

d

garnered. I timely motioned for a hearing, or rehearing, but was denied. My case

'n!'
O)
00
CO
Q_

was not considered, there was clear bias where law was disregarded and the
respondents were favored, and all judges’ orders have been heavily reliant on
language in the filings of the Respondents/Respondents/Governmental Actors which
presents alleged evidence which was already debunked in the lower, state court
before filing the civil claim. I have not had a hearing. “Some form of hearing is
required before an individual is finally deprived of a property [or liberty] interest.”
Mathews v. Eldridge, 424 U.S. 319, 333 (1976).
“Parties whose rights are to be affected are entitled to be heard.” Baldwin v.
Hale, 68 U.S. (l Wall.) 223, 233 (1863). This right is a “basic aspect of the duty of
government to follow a fair process of decision making... The purpose of this
requirement is to ensure abstract fair play to the individual. Thus, the notice of
hearing and the opportunity to be heard “must be granted at a meaningful time and
in a meaningful manner.” Armstrong v. Manzo, 380 U.S. 646, 562 (1966).
'^

Just as in criminal and quasi-criminal cases, an impartial decision maker is
an essential right in civil proceedings as well. “The neutrality requirement helps to
guarantee that life, liberty, or property will not be taken on the basis of an
erroneous or distorted conception of the facts or the law. . . . Tumey v. Ohio, 273
U.S. 610 (1927)); In re Murchison, 349 U.S. 133 (1966). And see Goldberg v. Kelly,
397 U.S. 264, 271 (1970). “. .. At the same time, it preserves both the appearance
and reality of fairness ... by ensuring that no person will be deprived of his
interests in the absence of a proceeding in which he may present his case with

O
CT>
O
rsi
<3'tu

00

03
Q_

assurance that the arbiter is not predisposed to find against him.” Marshall v.
Jerrico, 446 U.S. 238, 242 (1980); Schweiker v. McClure, 456 U.S. 188, 195 (1982).
Ms. Alexander-Jasmin was falsely arrested and jailed for 3 days based on a
misdemeanor charge. In the case of a misdemeanor... the officer may arrest the
suspect only long enough to identify the suspect and give the suspect a summons to
appear in court... The contact with SMPD was unlawful from its inception.
This case should be considered and decided beginning at the claimed civil rights
violations, not at a later point where the accused feel they have their best defense
against the claims. This case has not been decided using applicable law, and is not
being considered in its entirety, instead, actual law has been disregarded, and focus
has been obscured and narrowed to favor the accused. A court proceeding is not a
requisite of due process. Ballard v. Hunter, 204 U.S. 241, 255 (1907); Palmer v.
McMahon, 133 U.S. 660, 668 (1890). Due process required that SMPD get a warrant
before traveling to Ms. Alexander-Jasmin’s residence to conduct a child abuse
suspicion investigation when there was no emergency reported.
Respondents’ issue presented in “Issues Presented: B” argues that Officers were
entitled to qualified immunity ...fails. The State Sovereign Immunity and Tort
Liability, in 1946, the federal government passed the Federal Tort Claims Act (28
U.S.C. §2674 which states in pertinent part, "... police act with the authority of the
state. When police officers on duty misuse that formidable power to commit... the
public employer must be held accountable for their actions." See Monroe v. Pape,
365 U.S. 167,180 (1961). As the Supreme Court stated in United States v. Classic,

O
CT>
O
CO
CL)
CuO
03

o_

313 U.S. 299, 326 (1941), "misuse of power .possessed by virtue of state law and
made possible only because the wrongdoer is clothed with the authority of state law
is action taken 'under color of state law."
In Calabretta v. Floyd (9th Cir. 1999) 189 F.3rd 808, it was held ... for the
purpose of investigating a possible child abuse, where there were no exigent
circumstances ... requires ... a “warrant”. Santa Monica Police Department (SMPD)
has self-reported that they were present at the private residence to conduct a child
abuse suspicion investigation. Well-established law has long held SMPDs desire to
a child abuse suspicion investigation requires a warrant.
Also see Fisher v. City of San Jose (9thCir. 2007) 509 F.3rd 952., where it was
held that “...the failure to get an arrest warrant when the person to be arrested is
in his own home and there are no exigent circumstances justifying the lack of a
warrant is a 4th Amendment violation”.
Also see United States v. Warner (9th Cir. 1988) 843 F.2nd 401, 405; United
States v. Romero Bustamante (9th Cir. 2003) 337 F.3rd 1104, 1109, where it was
held that “The Fourth Amendment protections against warrantless searches and
seizures extend to the curtilage around one's home...”
Also note, in United States v. Ramos - Zaragosa (9th Cir. 1975) 516 F.2nd 141,
144, the court held that “...a ‘show of force,’... an attempted detention was in fact
an arrest... illegal.”
And see United States v. Cervantes (9th Cir. 2000) 219 F.3rd 882, 888-890;

O
CT>
O

Martin v. City of Oceanside (9th Cir. 2004) 360 F.3rd 1078, 1081-1083; United
CD
GO

CD
Q_

States v. Martinez (9th Cir. 2005) 406 F.3rd 1160; United States v. Russell (9th Cir.
2006) 436 F.3rd 1086. The original reports, expert witness testimony, dismissal of
charges and allegations by judges in lower courts, and other evidence prove there
was no emergency, no one needed protection, and SMPD openly admit that their
presence at Ms. Alexander Jasmin’s residence was primarily motivated by an intent
to search and seize evidence; an investigation. “The ‘emergency aid’ exception to the
4th Amendment, per the federal Ninth Circuit Court of Appeal, is a function of law
enforcement's ‘community caretaking function ,’ and requires a finding of three
circumstances to be applicable: The police must have ‘reasonable grounds’ to believe
that there is an emergency at hand and an immediate need for their assistance for
the protection of life or property; and, the search must not be primarily motivated
by an intent to arrest and seize evidence; and, there must be some reasonable basis,
‘approximating probable cause ,’ to associate the emergency with the area or place
to be searched.” The law expressly prohibits police to conduct investigations under
the guise of welfare checks, and prohibits child abuse suspicion investigation
without a warrant.
Ms. Alexander-Jasmin’s family was detained during SMPD’s warrantless
investigation of child abuse suspicion, Ms. Alexander-Jasmin was cooperative until
SMPD became excessively aggressive and offensive. Ms. Alexander-Jasmin invoked
her family’s rights and was arrested for the original charge of “...California Penal

O
O')

Code... § 148(a)(1) (willfully resisting a police officer)...” SMPD’s statement

O

regarding the arrest allegedly being lawful

because they had probable cause to

LO
CD
QO
CO
Q_

arrest for Public Intoxication...”, fails. The mere existence of a subsequent charge
imposed by SMPD after they were already in violation of the aforementioned, wellestablished law does not absolve them of the legal requirements they ignored when
carrying out their desired child abuse suspicion investigation. The arrest was
unlawful, and the additional, subsequent charge was retaliatory in nature; an abuse
of power.
The court is showing bias against well-established law from their own court to
grant a dismissal while the harmful actions of the Respondents which are the basis
of Ms. Alexander-Jasmin’s Civil Rights Claim were already effectuated before the
claims of the Respondent’s defense took place. Consideration by the full court is
therefore necessary to secure and maintain uniformity of the court’s decisions.

QUESTIONS OF EXCEPTIONAL IMPORTANCE
The proceeding involves one or more questions of exceptional importance,
because there are present issues upon which the panel decision conflicts with the
authoritative decisions of other United States Courts of Appeals that have
addressed the issue as well.
With regard to SMPD’s welfare check, also see People v. Morton (2003) 114
CaLApp.4th 1039, which states a welfare check of this nature, "... was not legally
sufficient...”
Also see People v. Superior Court [Irwin] (1973) 33 Cal.App.3rd 475, where is
was held that, “Although a police officer may, with exigent circumstances, secure a

O
CD
O
CD

'vt'
CD

00
CO
Q_

residence (or other protected place) pending the obtaining of a warrant or consent to
search, the law will not allow a warrantless entry and securing of the premises if
the exigency is of the officers own making. ...” Also in line with the decision in
People v. Bennett (1998) 17 Cal.4th 373.
Do note that, “Taking a minor ‘into temporary custody,’ as authorized by
W&I § 625, is the functional equivalent of an arrest.” (In re Charles C. (1999) 76
Cal.App.4th 420, 425, see also In re Thierry S. (1977) 19 Cal.3rd 727, 734, fn. 6.)
All of the actions of SMPD have been condemned by law, and should likewise
be condemned by this court, in line with previous decision published by this court.
The orders dated 09/16/2020 directly conflict with existing opinions by this, as well
as, other courts of appeal and the Supreme Court, and substantially affect a rule of
national application in which there is an overriding need for national uniformity.
This was submitted to the clerk and opposing counsel 14 days after entry of
judgment, in compliance with Fed. R. App. P. 40(a)(1).
Ms. Alexander-Jasmin denied due process, and falsely arrested and jailed for
3 days based on a misdemeanor charge. In the case of a misdemeanor, the officer
may arrest the suspect only long enough to identify the suspect and give the suspect
a summons to appear in court. The contact was unlawful from its inception.
Los Angeles County (DCFS) refused to answer the properly served summons.
The case should have been considered and decided beginning at the claimed civil
rights violations, not at an arbitrary, later point where the accused feel they have

O
CD
*—I

O

their best defense against the claims. The case was not decided using applicable
CD
QO

CO
Q_

law, and was not considered in its entirety, instead, actual law has been
disregarded, and focus has been obscured and narrowed to favor the accused. With
respect to these facts, it is reasonable to conclude the Jasmin Family was denied the
right to life, and rights to due process and a fair trial in Civil Court. During Ms.
Alexander-Jasmin’s chance to get justice, the courts engaged in lawlessness,
choosing to dissent from well-established law and judicial opinions and case laws
generated in prior cases by their own court. As a result, a panel of judges made
decisions in clear conflicts with decisions of the United States Supreme Court, as
well as well-established law, and multiple published decisions of the court to which
the petition was addressed, the United States Court of Appeals for the Ninth
Circuit.
A court proceeding is not a requisite of due process. Ballard v. Hunter, 204
U.S. 241, 255 (1907); Palmer v. McMahon, 133 U.S. 660, 668 (1890). Due process
required that SMPD get a warrant before traveling to Ms. Alexander-Jasmin’s
residence to conduct a child abuse suspicion investigation when there was no
emergency reported. Also see People v. Superior Court [Irwin] (1973) 33
Cal.App.3rd 475, where is was held that, “Although a police officer may, with
exigent circumstances, secure a residence (or other protected place) pending the
obtaining of a warrant or consent to search, the law will not allow a warrantless
i

entry and securing of the premises if the exigency is of the officers own making....”
Also in line with the decision in People v. Bennett (1998) 17 Cal.4th 373. All of the

O
CD
O
00
(LI

00

CD

CL

actions of SMPD have been condemned by law, and should likewise be condemned
by the court.
Prior decisions issued bv the United States District Court for the Ninth (9th)

Circuit:
In Calabretta v. Floyd (9th Cir. 1999) 189 F.3rd 808, it was held ... for the
purpose of investigating a possible child abuse, where there were no exigent
circumstances ... requires ... a “warrant”. Santa Monica Police Department (SMPD)
has self-reported that they were present at the private residence to conduct a child
abuse suspicion investigation. Well-established law has long held SMPDs desire to
a child abuse suspicion investigation requires a warrant.
Also see Fisher v. City of San Jose (9thCir. 2007) 509 F.3rd 952., where it
was held that “...the failure to get an arrest warrant when the person to be
arrested is in his own home and there are no exigent circumstances justifying the
lack of a warrant is a 4th Amendment violation”.
Also see United States v. Warner (9th Cir. 1988) 843 F.2nd 401, 405,' United
States v. Romero Bustamante (9th Cir. 2003) 337 F.3rd 1104, 1109, where it was
held that “The Fourth Amendment protections against warrantless searches and
seizures extend to the curtilage around one's home...”
Also note, in United States v. Ramos - Zaragosa (9th Cir. 1975) 516 F.2nd
141, 144, the court held that “...a ‘show of force,’... an attempted detention was in
fact an arrest... illegal.”

O
CD
O
CD
(D

00
TO
Q_

And see United States v. Cervantes (9th Cir. 2000) 219 F.3rd 882, 888-890,'
Martin v. City of Oceanside (9th Cir. 2004) 360 F.3rd 1078, 1081-1083; United
States v. Martinez (9th Cir. 2005) 406 F.3rd 1160; United States v. Russell (9th Cir.
2006) 436 F.3rd 1086. “The ‘emergency aid’ exception to the Fourth Amendment,
per the federal Ninth Circuit Court of Appeal, is a function of law enforcement's
‘community caretaking function ,’ and requires a finding of three circumstances to
be applicable^ The police must have ‘reasonable grounds’ to believe that there is an
emergency at hand and an immediate need for their assistance for the protection of
life or property; and, the search must not be primarily motivated by an intent to
arrest and seize evidence; and, there must be some reasonable basis,
‘approximating probable cause ,’ to associate the emergency with the area or place
to be searched.” The law expressly prohibits police to conduct investigations under
l

the guise of welfare checks, and prohibits child abuse suspicion investigation
without a warrant.
The Respondents/Respondents argued that Officers were entitled to qualified
immunity, however, The State Sovereign Immunity and Tort Liability, in 1946, the
federal government passed the Federal Tort Claims Act (28 U.S.C. §2674 which
states in pertinent part,

police act with the authority of the state. When police

officers on duty misuse that formidable power to commit... the public employer
must be held accountable for their actions." See Monroe v. Pape, 365 U.S. 167, 180
(1961). As the Supreme Court stated in United States v. Classic, 313 U.S. 299, 326
(1941), "misuse of power possessed by virtue of state law and made possible only

O
CT>
O
O
LO

QJ
QO
(U
Q_

because the wrongdoer is clothed with the authority of state law, is action taken
'under color of state law." The law required them to make a settlement to avoid
wasting the courts time, instead, the court conspired with the “Respondents” to
deny Ms. Alexander-Jasmin justice, and agreed to dismiss a righteous civil rights
case in clear conflict with the spirit of the United Nations Treaty, especially
CHAPTER IV: Human Rights, International Covenant on Civil and Political Rights.
New York, 16 December 1966.
The original reports, expert witness testimony, dismissal of charges by Santa
Monica City Attorney’s Office, dismissal of allegations by a judge in a lower court,
and other evidence prove there was no emergency, no one needed protection, and
SMPD openly admit that their presence at Ms. Alexander-Jasmin’s residence was
primarily motivated by an intent to search and seize evidence; an investigation
prohibited by well-established law.
SMPD’s statement regarding the arrest allegedly being lawful

because

they had probable cause to arrest for Public Intoxication...” is not only in conflict
with their prior admissions, the evidence and the law, it fails the law from every
angle. The mere existence of a subsequent charge imposed by SMPD after they were
already in violation of the aforementioned, well-established law and Civil Rights
requirements does not absolve them of the legal requirements they ignored when
carrying out their desired child abuse suspicion investigation. The arrest was

O
O')

unlawful, and the additional, subsequent charge was retaliatory in nature, and an

O

abuse of power. The strategy of distracting from the true nature of the case to

*—I

*—I
LD
CD

ao
03
Q_

generate a defense by highlighting additional tortious acts, and claiming the
additional, tortious acts are a valid defense is what “lawlessness” is. The
lawlessness was perpetuated by officers of the court. Where officers of the court
have adopted lawlessness, there can be no fair trials.

\

O
CD
t—I

O
CM
LO
CD

tao
ro

CL
L

CONCLUSION
During Ms. Alexander-Jasmin’s chance to get justice, the courts engaged in
lawlessness, choosing to dissent from well-established law and judicial opinions and
case laws generated in prior cases by their own court. The petition for a writ of
certiorari should be granted based on the following, proven facts:
In a routine, yet unlawful, “rousting'’ of “Krystal Jasmin” on Friday,
September 19, 2014, Ms. Alexander-Jasmin’s family was detained in what Santa
Monica Police Department (SMPD) initially, accurately reported in their narrative
as an unfounded and warrantless investigation of child abuse suspicion [description
is not verbatim]. The law has expressly forbidden this type of contact with citizens
by police. No crime nor abuse had occurred, and the stated purpose of their presence
was strictly motivated by the desire to search and seize any unflattering
information they could gather with the intent to use the information in a judicial
proceeding. Without Ms. Alexander-Jasmin having a criminal history, and with no
crime reported, SMPD still chose to bring her under the jurisdiction of the state. In
furtherance of their plot, there are several documented instances of malice, fraud
and oppression where SMPD knowingly generated false reports to intentionally
cause harm, and enlisted others to do so as well.
Ms. Alexander-Jasmin was cooperative while SMPD became excessively
aggressive and offensive. Ms. Alexander-Jasmin invoked her family’s rights and

O
CT>

was arrested for the original charge of “...California Penal Code... § 148(a)(1)

O

(willfully resisting a police officer)...”, for an unlawful investigation.

m
LO

CD
00

ru

Q_

When SMPD realized Ms. Alexander Jasmin was intelligent and aware of her
rights they decided to charge her with an additional crime they knew she had not
committed in an effort to tarnish her reputation and bury her under the color of
law. After already taking the family, including the minor children, into custody
unlawfully, and after contacting the Los Angeles County Department of Children
and Family Services (DCFS) in disregard of the governing laws. SMPD falsely
charged the mother with “Intentional infliction of harm to a minor” (“Child Abuse”)
when no child was ever reported as being abused, there was nothing justifying
claiming the children were ever abused, and there was no preauthorization by any
legal authority allowing for an investigation into abuse.
SMPD fabricated a child abuse charge, then intentionally enlisted DCFS to
confound and frustrate Ms. Alexander - Jasmin’s chances of receiving justice. DCFS
intentionally entered false allegations of child abuse into a judicial proceeding.
California Judge, Julie Foxx Blackshaw, intentionally disregarded the law, to aid in
the conspiracy, claiming jurisdiction over children she knew were not abused, and
based on allegations which clearly did not meet the standards of the governing laws
she swore to uphold. She, herself, deemed all allegations as unfounded, as she also
made an order to retain custody of the children for the state, and personally granted
the County Counsel to go on a phishing expedition into Ms. Alexander - Jasmin’s
life for almost three years with the intent of uncovering any negative information

O
CT>

that could be sued to support the false allegations. The continued, unlawful

O

investigation lasted almost 3 years and yielded no negative results they could use.

*—I

LD

CD
GO

03
Ol.

The initial arrest charges from 09/19/2014, which were widely published and
disbursed in a newspaper and on the internet, were declined for prosecution by the
City Attorney’s Office of Santa Monica on 09/24/2014. Ms. Alexander- Jasmin lost
her good reputation, child custody, and was terminated from her employment with
the Department of Public Social Services based on the false arrest, false charges,
and SMPD reporting the false information to DCFS and the Department of Justice
(DOJ). The aforementioned newspaper article called Ms. Alexander- Jasmin a “bad
parent” and a “drunk mom”, included the petitioners name, age and address.
DCFS entered false allegations stemming from the disowned arrest into
children court to retain custody of the children before ever establishing they were
abused and the judge violated the family’s rights further by allowing the local
*

government more time, in excess of two (2) years, to “pad” a case against the
innocent mother to avoid accountability for their Civil Rights Violations. Ms.
Alexander-Jasmin still submitted to the government process and filed a lawsuit
against the government for the Civil Rights Violations in 2015. Due to threats to
terminate her parental rights and unlawfully adopt her children away, she was
forced to re-file in 2016 under the case number listed herein.
As a result of the respondents’ actions and inactions the petitioner has been
subject to libel, slander, contempt, loss of reputation, loss of familial bonds, and
extreme emotional distress. Evidence of which was provided to and receipt

O
CT)

acknowledged by counsel for the defense during the deposition of Krystal Jasmin on

O

Thursday, December 6, 2018.

LO
LO

CD
QO

03
Q_

The petitioner’s attempts to be compensated by Cahfornia’s Victim
Compensation Program were thwarted by the dishonesty of SMPD when they
claimed that the petitioner was never arrested 09/19/2014, and was only issued a
citation for the misdemeanor charges.
The strain of the injustice allowed by the conspiracy has worn on the family
and caused several relationships to sour. The petitioner was put in a position where
she is now required to utilize the remedy provided by law, to request justice, restore
her good name and reputation, repair her legacy so it is untarnished by the actions
of the respondents, and to be made whole from the nightmarish situation caused by
the respondents.
Ms. Alexander-Jasmin submitted the required “Administrative Claims
Process” forms within the prescribed six (6) months of the false arrest. She was
denied an amicable resolution which granted her permission to file a lawsuit. She
filed a lawsuit in 2015, within the prescribed one (l) year of being rejected in the
Administrative Claims Process. Ms. Alexander-Jasmin was then subjected to
threats by her government for pursuing justice, and they threatened to terminate
her parental rights and adopt her children away for reporting their abuses. Due to
threats to terminate her parental rights and unlawfully adopt her children away,
she was forced to re-file in 2016 under the case number listed herein.
Ms. Alexander-Jasmin was denied justice in the United States District Court­
Central District of Los Angeles, and, after making every possible petition and
motion, she was forced to file a claim with the United States Court of Appeal for the

O
O')
's—I

O
<£>
LO
CD
m
CO
Q_

Ninth (9th) Circuit, who disregarded its own laws to deny Ms. Alexander-Jasmin
justice. A decision that clearly conflicts with well-established law, as well as the
United Nations Treaty, was entered by a panel of three (3) judges on 09/16/2020, in
clear violation of Human Rights with regard to deprivations of rights, and fair
trials. The court affirmed a harmful decision of a lower court in clear conflict with
an abundance of its own prior cases and published decisions.
Ms. Alexander - Jasmin is now petitioning the United States Supreme Court
to review the case, wherein, the Supreme Court Justices are being asked to:
l) Condemn the lower courts’ dissent from well-established
Constitutional and case law.
2) Condemn the lower courts’ dissent from the official record by
excluding admissible, expert witness evidence and testimony presented
by the Plaintiff/Appellant/Petitioner.
3) Condemn the lower courts’ undue bias for uncorroborated,
inadmissible defenses presented by the “Governmental Actor”
Defendants/Appellees/Respondents, and condemn the lower courts’
decision to act as a witness instead of triers of facts, the court itself
testifying, on the official record to “facts not in evidence” regarding
uncorroborated mental health allegations which contradict expert
witness testimony of Dr. Suzie Dupee.
4) Condemn the lower courts’ not reinstating properly served,
“dismissed without prejudice” Defendants, Los Angeles County; DCFS.

O
Ch
*—I

O
LO

CD
CUD
CD

o_

5) Seriously consider if it is a wise decision for national security and
the present state of the world, to ignore facts and evidence of Christ
living among you, and being victimized by this government.
The law is clear, and, thus far, the actions of the court giving rise to civil
action, and in the handling of the civil actions listed herein, have lacked the
integrity, dignity, liberty and the justice the United States of America purports to
embody. A correction of the errors of the lower courts is necessary.
For the foregoing reasons, the petition for a writ of certiorari should be granted.
Dated this 25th day of March, 2021.

Respectfully submitted,

L
Krystal Lynn Alexander - Jasmin, Christ, D.o.D.
/

Pro Se Litigant
300 W. Ocean Blvd., Apt. 6615
Long Beach, California 90802
(424)610-1442
refllldaj<atemail.com

O
CT)
t—I

O
00
LO

CD
00

fU
Q_

